"MPfoDXX Au
FILED: June 9, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7721 (L)
(1:19-CV-00400-TSE-IDD)

TRAVIS JACKSON MARRON, a/k/a Abdul Mu'Min
Petitioner - Appellant
v.
HAROLD CLARKE, Director of VA Dept, of Corrections
Respondent - Appellee

No. 19-7872
(1:19-cv-00400-TSE-IDD)

TRAVIS JACKSON MARRON, a/k/a Abdul Mu’Min
Petitioner - Appellant
v.
HAROLD CLARKE, Director of VA Dept, of Corrections
Respondent - Appellee

ORDER

The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor. Clerk

vftP/)g>QDx?<

g>

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7721
TRAVIS JACKSON MARRON, a/k/a Abdul Mu’Min,
Petitioner - Appellant,
v.

HAROLD CLARKE, Director of VA Dept, of Corrections,
Respondent - Appellee.

No. 19-7872
TRAVIS JACKSON MARRON, a/k/a Abdul Mu’Min,
Petitioner - Appellant,
v.

HAROLD CLARKE, Director of VA Dept, of Corrections,
Respondent - Appellee.

Appeals from the United States District Court for the Eastern District of Virginia, at
Alexandria. T.S. Ellis, III, Senior District Judge. (l:19-cv-00400-TSE-IDD)
Submitted: April 21, 2020

Decided: April 28, 2020

Before GREGORY, Chief Judge, QUATTLEBAUM and RUSHING, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Travis J. Marron, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

2

PER CURIAM:
Travis J. Marron seeks to appeal the district court’s orders dismissing his 28 U.S.C.
§2254 (2018) petition as successive and unauthorized and denying his postjudgment
motion. The orders are not appealable unless a circuit justice or judge issues a certificate
of appealability. See 28 U.S.C. § 2253(c)(1)(A) (2018). A certificate of appealability will
not issue absent “a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2) (2018). When the district court denies relief on the merits, a prisoner satisfies
this standard by demonstrating that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or wrong. See Buck v. Davis, 137 S. Ct.
759, 773-74 (2017). When the district court denies relief on procedural grounds, the
prisoner must demonstrate both that the dispositive procedural ruling is debatable and that
the petition states a debatable claim of the denial of a constitutional right. Gonzalez v.
Thaler, 565 U.S. 134, 140-41 (2012) (citing Slack v. McDaniel, 529 U.S. 473,484 (2000)).
We have independently reviewed the record and conclude that Marron has not made
the requisite showing. Accordingly, we deny a certificate of appealability and dismiss the
appeal. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

3

Case l:19-cv-00400-TSE-IDD Document 8 Filed 10/25/19 Page 1 of 3 PagelD# 51

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA

LIB

Alexandria Division
Travis Jackson Marron
a/k/a Abdul Mu’min,
Petitioner,

)

v.

)

OCT 2 5 2019

)
)

CLERK, U.S. DISTRICT COURT
ALEXANDRIA, VIRGINIA

)
)

Harold Clarke,
Respondent.

l:I9cv400 (TSE/IDD)
l:19cv910 (TSE/IDD)

)
)

ORDER
Proceeding pro se, Virginia inmate Travis Jackson Marron a/k/a Abdul Mu’min has filed
two identical petitions for writs of habeas corpus pursuant to 28 U.S.C. § 2254, see [-400 Case
Dkt. No. 1; -910 Case Dkt. No. 1], and paid the filing fees, see [-400 Case Dkt. No. 6; -910 Case
Dkt. No. 4]. Because Marron has paid the filing fees, his applications for permission to proceed
in forma pauperis, see [-400 Case Dkt. No. 7; -910 Case Dkt. No. 5], are moot.
Marron seeks to challenge his 1998 convictions in Chesapeake Circuit Court for murder
and related crimes. See [-400 Case Dkt. No. 1; -900 Case Dkt. No. 1]. Marron previously
challenged these convictions in a § 2254 petition filed in 2001; this Court denied that petition;
and the United States Court of Appeals for the Fourth Circuit dismissed Marron’s appeal. See
Marron v. Aneelone. No. 1:01cvl 106 (E.D. Va. 2001), app. dism.. No. 01-7836 (4th Cir. 2002)
(available on www.pacer.gov). In 2003, the Fourth Circuit denied Marron’s application for
authorization to file a second or successive § 2254 petition. See In re Marron, No. 03-294 (4th
Cir. 2003) (available on www.pacer.gov). And, in 2017, the Fourth Circuit denied Marron’s
second application for permission to file a second or successive § 2254 petition. See Inre
Marron. No. 17-432 (4th Cir. 2017) (available www.pacer.gov).

Ly

Case l:19-cv-00400-TSE-IDD Document 8 Filed 10/25/19 Page 2 of 3 PagelD# 52

Before Marron may file a second or successive federal habeas petition, he is statutorily
required first to obtain authorization from the Fourth Circuit to do so. See 28 U.S.C. § 2244.
Absent prefiling authorization, this Court lacks jurisdiction to consider a second or successive
petition from Marron. See, e.e.. United States v. Reid, 745 F. App’x 513,514 (4th Cir. 2018)
(citing 28 U.S.C. § 2244(b)(3)). Because Marron has not proffered prefiling authorization from
the Fourth Circuit for his latest § 2254 petitions, this Court lacks jurisdiction to consider them.
Accordingly, it is hereby
ORDERED that Marron’s applications for permission to proceed in forma pauperis [-400
Case Dkt. No. 7; -910 Case Dkt. No. 5] be and are DENIED as moot; and be it further;
ORDERED that Marron’s § 2254 petitions [-400 Case Dkt. No. 1; -910 Case Dkt. No. 1]
be and are DISMISSED for lack ofjurisdiction.
The Fourth Circuit has held that “[a] jurisdictional dismissal of a collateral attack on a

;

habeas proceeding is so far removed from the merits of the underlying habeas petition that it

i
:

cannot be said to be a ‘final order[]... disposing of the merits of a habeas corpus proceeding...
challenging the lawfulness of the petitioner’s detention.’” United States v. McRae, 793 F.3d 392,
400 (4th Cir. 2015) (quoting Harbisonv. Bell. 556 U.S. 180,183 (2009)). It has therefore held
that a Certificate of Appealability is not required “before determining whether the district court
erred in dismissing... an unauthorized successive habeas petition.” Id. Accordingly, the Court
need not determine whether Marron meets the requisite standard for issuance of a Certificate of
Appealability.

;

To appeal this decision, Marron must file a written notice of appeal with the Clerk’s
office within thirty (30) days of the date of this Order. See Fed. R. App. P. 4(a). A written notice
of appeal is a short statement indicating a desire to appeal and including the date of the Order

2

;
I

i

Case l:19-cv-00400-TSE-IDD Documents Filed 10/25/19 Page 3 of 3 PagelD# 53

Marron wishes to appeal. Failure to file a timely notice of appeal waives the right to appeal this
decision.
The Clerk is directed to send a copy of this Order to Marron, together with the attached
application form for requesting authorization to file a second or successive § 2254 petition from
the Fourth Circuit.
Entered this Zf) day of

., 2019.

Alexandria, Virginia

' w
T. S. Ellis. HI /
United States District Judge

I

i

i

!
i

i

3

i
!i

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
Travis Jackson Marron
a/k/a Abdul Mu’min,
Petitioner,
v.
Harold Clarke,
Respondent.

)
)
)
)
)
)
)
)

l:19cv400 (TSE/IDD)

ORDER
On October 25, 2019, the Court dismissed for lack of jurisdiction a habeas corpus petition
filed by Virginia inmate Travis Jackson Marron a/k/a Abdul Mu’min because he failed to proffer
the requisite prefiling authorization from the United States Court of Appeals for the Fourth
Circuit before presenting a second or successive habeas petition. See [Dkt. No. 14]. Marron
appealed [Dkt. No. 9] and filed a pro se motion for reconsideration pursuant to Federal Rule of
Civil Procedure 60(b)(4) [Dkt. No. 14].
Rule 60(b)(4) provides for relief when the Court’s “judgment is void.” This refers only to
the judgment of the Court in this proceeding, not to a judgment entered by a state court in state
criminal or habeas proceedings. Because the Court’s judgment in this action is not void, Marron
is not entitled to reconsideration or relief on this ground.
Marron also argues in his motion for reconsideration that his petition is not second or
successive in light of the Supreme Court’s decision in Martinez v. Ryan. 566 U.S. 1 (2012). See
[Dkt. No. 14 at 5]. Marron is incorrect and the United States Court of Appeals for the Fourth
Circuit rejected this argument in 2017 when Marron applied for permission to file a second or

successive habeas petition. See In re Marron. No. 17-432 (4th Cir. 2017) (available on
www.pacer.gov). It is no basis for relief here.
Accordingly, it is hereby
ORDERED that Matron’s motion for reconsideration [Dkt. No. 14] be and is DENIED.
To appeal this decision, Marron must file a written notice of appeal with the Clerk’s
office within thirty (30) days of the date of this Order. See Fed. R. App. P. 4(a). A written notice
of appeal is a short statement indicating a desire to appeal and including the date of the Order
Marron wishes to appeal. Failure to file a timely notice of appeal waives the right to appeal this
decision.
The Clerk is directe o send a copy of this Order to Marron.

r-•jk

Entered this U_ day of

U&o

, 2019.

Alexandria, Virginia
T. S. Filis, IT
United States District Tube

2

"AtfgAJfcs-* ft*

VIRGINIA:
Jtt the Supteme dewit of, Virginia field at the Supreme Gowtt {Building, in the
Qity of {Richmond on Juetdag the 26th dag. of Jilwich, 2019.
Abdul-Mu’min Marron,
f/k/a Travis Jackson Marron,
against

Appellant,

Record No. 180278
Circuit Court No. CL17-4297

Commonwealth of Virginia,

Appellee.

From the Circuit Court of the City of Chesapeake

Upon consideration of the record and the pleadings filed in this case, the Court
finds that assignment of error no. 2 does not address any ruling of the circuit court in Travis J.
Marron v. Commonwealth of Virginia, Circuit Court No. CL 17-4297, from which an appeal is
sought. Accordingly, the petition for appeal is dismissed as to that assignment of error. Rule
5:17(c)(l)(iii).
Upon further consideration whereof, assignment of error no. 1 is refused.
Justice McCullough took no part in the resolution of the petition.

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

<55^Deputy Clerk

f

* 4PP&0&X*

£~ ”

VIRGINIA:
IN THE CIRCUIT COURT OF THE CITY OF CHESAPEAKE
TRAVIS J. MARRON, No. 1091504
Petitioner
Civil No. CL17-4297

v.
COMMONWEALTH OF VIRGINIA,
Respondent

FINAL ORDER
Upon mature consideration of Travis Jackson Marron’s “Motion to Vacate (Motion), the
motion of the Attorney General, and the authorities cited therein, a review of the records in Case
Nos. 97-3158 through 97-3161 and Case No. CL00-896, which are hereby made a part of the record
in this matter, this Court finds as follows:
Travis Jackson Marron (the' Petitioner) was charged with capital murder, robbery and two
related firearm charges. He pled guilty to first-degree murder, robbery and the related firearm
charges, CaseNos. 97-3158 through 97-3161. On November 2,1998, he was sentenced to 75 years
■ ort the murder charge (28 years suspended), 25 years for the robbery (25 years suspended), 3 years
for the use of a firearm in the commission of. murder charge and 5 years for the use of a firearm in
the commission of robbery charge. This Court entered judgment on December 7, 199.8. imposing
those sentences, The Petitioner did not appeal.
Procedural History
On December 16, 1999, the. Petitioner, proceeding pro se, executed a habeas petition, in
which he alleged: he was entitled to. a new trial because both of his parents had not been notified of
his transfer hearing; numerous claims of ineffective assistance of counsel; his right to confront the

witnesses against him was violated; and that there was insufficient evidence to support his
convictions. This Court denied and dismissed the Petitioner’s habeas petition on January 9, 2001.
. Case No. CL00-896. The Petitioner’s subsequent petition for appeal to the Virginia Supreme Court
was dismissed on May 1, 2001 because it had not been perfected in the manner provided by law,
citing Rule 5:17(a)(l). Record No. 010874.1
On October 5, 2015, the Petitioner filed a petition for a “Writ of Error Motion to
Void/Vacate Judgement” in Case No. CR97-3158, which this Court dismissed on December 11,
2015. The Virginia Supreme Court refused the Petitioner’s petition for appeal from the 2015
judgment by order entered November 29, 2016. Record No. 160014. The United States Supreme
Court denied the Petitioner’s petition for a writ of certiorari on March 17, 2017. Record No. 167938.
Present Motion
On October 25, 2017, Petitioner executed the present Motion to Vacate (Motion), and
alleges his. convictions are void and should be vacated. His claim and allegations are as follows:
• “MARRON’S” SENTENCES AND CONVICTIONS ARE VOID AB INITIO
BECAUSE THE TRIAL COURT LACKED SUBJECT MATTER
JURISDICTION TO CONDUCT “MARRON’S” TRIAL WHERE NO
EVIDENCE WAS ADDUCED AT TRIAL TO PROVE THAT THE CRIME FOR
WHICH MARRON WAS CONVICTED, NAMELY MURDER & ROBBERY OF
MARK PICKREL, & 2 COUNTS OF USE OF A FIREARM OCCURRED IN
THE LOCALITY IN WHICH THE COURT HAD JURISDICTION - HENCE IN
THE COMMONWEALTH OF VIRGINIA. (Motion at 2).

l

Marron. also sought habeas relief in federal court. On June 29, 2001, the Petitioner executed a
federal habeas petition, which the federal district court dismissed as untimely on; September 17,
2001. Civil Action No. 01-1106-AM. The United States Court of Appeals for the Fourth Circuit
dismissed his subsequent appeal on March 25, 2002, and the petition for rehearing was denied on
May 14, 2002. Record No. 01-7836. The Petitioner failed to properly file a petition for a writ of
certiorari. The Petitioner’s 2003 application to file a successive federal habeas petition was
denied on November 26, 2003. (Resp. Ex. 1).
2

/

The Petitioner asserts that his indictments were void ab initito because the “Commonwealth failed
to present any evidence regarding the state, city, street address that show[] the crime happened in
the Commonwealth of Virginia, or locality at which” Pickrel’s murder occurred and therefore this
Court lacked subject matter jurisdiction to try the Petitioner. (Motion at 5-6). His Motion is
untimely under Rule' 1:1 and is also without merit.

ry

A Guilty Plea Admits the Allegations
in the Indictment and no Further Evidence is required
The Petitioner was charged in four indictments that read, in relevant part, that “On or
about June 26, 1997, in the City of Chesapeake, Virginia, the accused, Travis Jackson Matron,
did” (emphasis added) murder Mark Pickrel, rob Mark Pickrel, and use a firearm in each
substantive offense.

Each of the four indictments was returned by the. Chesapeake Circuit

Court’s grand jury during the December 19.97 term. On June 18, 1998, this Court arraigned the
Petitioner on each of the four indictments. The Petitioner entered a guilty plea to each indictment
after it was read aloud by the clerk. (6718/1998 Tr. at 2-4). The prosecutor’s proffer of the
evidence included that the Petitioner had robbed the victim at the victim’s apartment in the City
of Chesapeake and then transported the victim to another location in the City of Chesapeake
where the Petitioner shot and killed the victim. (Id, at 10-13). The summary of the evidence
concluded with the prosecutor stating all of the events had taken place in the City of Chesapeake.
(Id, at 13).

2 Marron has also file another Motion to Vacate in this Court challenging his convictions on a
different ground. Case No. CL17-4298.

3

First, the Court had personal jurisdiction over the Petitioner by virtue of his guilty pleas •
to the indictments. His appearance and plea in this Court subjected him to the jurisdiction of this
Court. Gilpin v. Joyce. 257 Va. 579, 581, 515 S.E.2d 124, 125 (1999) (general appearance “is a
waiver of process, equivalent to personal service of process, and confers jurisdiction of the
person on the court.”) (quoting Nixon v. Rowland. 192 Va. 47, 50, 63 S.E.2d 757, 759 (1951));
accord Lvren v. Ohr. 271 Va. 155, 160, 623 S.E.2d 883, 885 (2006) (a general appearance
“waived any defects in service of process and conferred personal jurisdiction of his person upon
the circuit court.”(citing Nixon. 192 Va. at 50, 63 S.E.2d at 759); see United States v. Marks. 530
F.3d 799, 810 (9th Cir. 2008) (court had subject matter jurisdiction because the indictment
charged an offense against the laws of the United States, and court had personal jurisdiction over
the defendant because he was brought before it on a federal indictment charging a violation of
federal law).
Second, by pleading guilty to each of the indictments the Petitioner admitted to each
allegation in the indictments, including the allegation that the robbery, murder and both use
firearm convictions occurred in the City of Chesapeake, Virginia. See Kibert v. Commonwealth.'
216 Va. 660, 665, 222 S.E.2d 790, 793 (1976) (‘“Generally no evidence of guilt is required in
order to proceed to judgment [upon a plea of guilty], for [the] accused has himself supplied the
necessary proof . . .

(quoting Hobson v. Youell. 177 Va. 906, 912-13, 15 S.E.2d 76, 78

(1941))); Jones v. Commonwealth. 29 Va. App. 503, 510, 513 S.E.2d 431, 435 (1999) (“Virginia
law . . . establishes that a plea of guilty ordinarily subsumes an admission of guilt.”); see also
Pevton v. King. 210 Va. 194, 196, 169 S.E.2d 569, 571 (1969) (plea of guilty is “a self-supplied

. 4

conviction authorizing imposition of the punishment fixed by law” and “is a waiver of all
defenses other than those jurisdictional.”).3
Lastly, this Court had both subject matter jurisdiction by virtue of its designation as a
circuit court and the authority to exercise that jurisdiction as a result of the return of the
indictment.

See Porter v. Commonwealth. 276 Va. 203, 230, 661 S.E.2d 415, 428 (2008)

(discussing circuit courts subject matter jurisdiction over charges under Code § .17.1-513, the
authority to conduct that trial; and the territorial jurisdiction authorizing the court to adjudicate
among the parties at a particular place, which is where the indictment is returned by virtue of
Code § 19.2-239). Since the Court had subject matter jurisdiction by statute, the authority to
exercise that subject matter jurisdiction by virtue of the return of the indictment, and jurisdiction
of the Petitioner’s person by virtue of his general appearance before the Court and his plea of
guilty, the Petitioner has failed to show that his conviction is void; thus and his Motion is barred
by Rule 1:1.
In addition, the Supreme Court has recently reaffirmed the long-standing rule in Virginia
that collateral attacks on criminal judgments (such as a motion to vacate filed more than.twentyorie days after a judgment has become final) are limited to a judgment that is void ab initio, and
do not “serve as an all-purpose pleading for collateral review of criminal convictions” to consider
issues a defendant failed to preserve at trial. See Jones v. Commonwealth, 293 Va. 29, 53, 795,
S.E.2d 705, 719 (2017). Rule 1:1 bars a collateral challenge unless the judgment challenged is

3 “Under Virginia law, “the court shall try the case” after receiving a guilty plea. This does not
mean that “evidence must be heard upon a plea of guilty.” But it does mean that when evidence,
a stipulation, or an unobjected-to proffer is presented to the trial court in conjunction with a
guilty plea, an appellate court will consider it alongside the other evidence presented during the
earlier suppression hearing.” Smith v. Commonwealth, 61 Va. App. 112, 116, 733 S.E.2d 683,
685 (2012).
5

void, not merely voidable. See Super Fresh Food Mkts. of Va. v. Ruffin, 263 Ya, 555, 563, 561
S.E.2d 734, 739 (2002) (“Once a final judgment has been entered and the twenty-one day time
period of Rule 1:1 has expired, the trial court is thereafter without jurisdiction in the case.”).
The Petitioner’s failure to raise his alleged claim during the criminal proceedings in 1998
constitutes a waiver of any error that may have occurred, and renders his motion barred by Rule 1:1
since it was not raised within 21 days of the entry of the final order. See Singh v. Mooney. 261 Va.
48, 51, 541 S.E.2d 549, 551 (2001) (if judgment is not void, collateral attack is subject to the
limitations of Rule 1:1) ("citing Parrish v. lessee. 250 Va. 514, 521, 464 S.E.2d 141, 145 (1995)).4
The Petitioner’s allegations can be disposed of on the basis of recorded matters, and no
plenary hearing is necessary. Cf. Friedline v. Commonwealth. 265 Va. 273,576 S.E.2d 491 (2003);
.

Yeatts v. Murray. 249 Va. 285.455 S.E.2d 18 (19951: Arev v. Pevton. 209 Va. 370.;164 S.E.2d 691
(1968).
The Petitioner’s allegations can be disposed of on the basis of recorded matters, and no
plenary hearing is necessary. Cf Friedline v. Commonwealth. 265 Va. 273, 576 S.E.2d 491 (2003);
Yeatts v. Murray. 249 Va. 285,455 S.E.2d 18 (1995); Arev v. Pevton, 209 Va. 370,164 S.E.2d 691
(1968).
For the reasons stated, it is ADJUDGED and ORDERED that Marron’s Motion is hereby
DENIED and DISMISSED as untimely under Rule 1:1.

Pursuant to Rule 1:13, the Court

dispenses with the endorsement of the Petitioner, and this matter is stricken from the docket of this
Court.

4 The Petitioner’s guilty plea also waives any non-jurisdictional defects. See Savino v.
Commonwealth. 239 Va. 534, 538-539, 391 S.E.2d 276, 278 (1990) (citing Peyton v. King, 210
Va. 194,196-97,169 S.E.2d 569, 571 (1969)).
6

The Clerk is directed to forward a certified copy of this Final Order dismissing Marron’s
' Motion to the Petitioner and Michael T. Judge, Senior Assistant Attorney General.
Entered this

I ask for this:

iiMiuJi 7.0^4—■
MICHAEL T. JUDGg^ VS®No. 30456
Senior Assistant Attorney General
Office of the Attorney General
202 N. Ninth Street
Richmond,. Virginia 23219
(804) 786-2071; FAX (804) 371-0151
oagcriminallitigation@oag.state.va.us
Counsel for Respondent

7

